                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                                          Independent Auditors’ Report


Managing Director
Federal Communications Commission

Inspector General
Federal Communications Commission


We have audited the accompanying consolidated balance sheets of the Federal Communications
Commission (FCC) as of September 30, 2010 and 2009, and the related consolidated statements of net cost,
changes in net position, custodial activity, and combined statements of budgetary resources (hereinafter
referred to as “consolidated financial statements”) for the years then ended. These consolidated financial
statements are the responsibility of the FCC’s management. Our responsibility is to express an opinion on
these consolidated financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the FCC’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall consolidated financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the Federal Communications Commission as of September 30, 2010 and
2009, and its net costs, changes in net position, budgetary resources, and custodial activity for the years
then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis, Other Accompanying Information, and
Required Supplementary Information is not a required part of the consolidated financial statements, but is
supplementary information required by U.S. generally accepted accounting principles. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the methods
of measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2010, on our consideration of the FCC’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 12, 2010
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Managing Director
Federal Communications Commission

Inspector General
Federal Communications Commission

We have audited the consolidated balance sheets of the Federal Communications Commission (FCC) as of
September 30, 2010 and 2009 and the related consolidated statements of net cost, changes in net position,
custodial activity, and combined statements of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the years then ended, and have issued our report thereon dated November 12,
2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the FCC is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the FCC’s internal control over
financial reporting by obtaining an understanding of the FCC’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the FCC’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the FCC’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in Exhibit I that we consider to be significant
deficiencies in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.


                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
The FCC’s responses to the internal control findings identified during our audit are presented in the
Agency Financial Report. We did not audit the FCC’s response and, accordingly, we express no opinion on
it.

Exhibit II presents the status of prior year’s findings and recommendations.

We noted certain additional matters that we have reported to management of the FCC in a separate letter
dated November 12, 2010.

This report is intended solely for the information and use of the FCC’s management, the FCC’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 12, 2010
                                                                                                EXHIBIT I
                                SIGNIFICANT DEFICIENCIES

Financial Reporting Process

The FCC consolidated financial statements present the financial results of the following reporting
components: The Commission (FCC), the Universal Service Fund (USF), the Telecommunications
Relay Services Fund (TRS), and the North American Numbering Plan (NANP). The FCC has
oversight responsibilities over the other components. USF, TRS, and NANP are administered by
other organizations independent of the FCC. Each component entity is responsible for preparing its
trial balance. The FCC’s Office of the Managing Director, Division of Financial Operations, is
responsible for reviewing the component entities’ trial balances before including that financial data
in the FCC consolidated financial statements.

FCC reporting component entities’ fiscal year 2010 financial systems and processes were not
capable of achieving the financial system integration standards set forth within the Government
Accountability Office (GAO) Standards for Internal Control in the Federal Government. These
standards require that the consolidated financial statements be prepared from an accounting system
that is an integral part of a financial management system containing sufficient structure, effective
internal controls and reliable data. Many of the FCC’s significant transactions are tracked on Excel
spreadsheets and recorded into the general ledger at a summary level. Significant examples of this
include (all amounts in thousands as of 9/30/10):

       Spectrum Auction Activities for FCC – $391,178

       Investment Transactions for USF and TRS – $6,087,715

       Deferred Revenues for FCC – $99,626

       Accounts Payable Transactions for USF – $111,973

       Loans Transactions for FCC – $46,470

       Budgetary Transactions/Entities for FCC, USF and TRS – $9,354,171

       Property Transactions for FCC – $54,396

       On-Top Financial Statement Adjustments - $357,750

Inadequate financial system integration and the use of manual reporting processes increases the
risk of potential errors in the consolidated financial statements going undetected by management,
and results in non-compliance with GAO guidance. FCC management plans to implement a new
financial system for the fiscal year 2011. We will reassess these conditions during our fiscal year
2011 testing.
Recommendations

    1.   Complete implementation of a financial system that is fully integrated and has the
         ability to record proprietary and budgetary transactions on a transactional basis and
         complies with the requirements set forth in the GAO Standards for Internal Control in
         the Federal Government. The system should be flexible to accommodate new
         accounting requirements issued by FASAB, OMB and Treasury. (Updated)
    2.   Develop a standard set of transaction codes to process all routine transactions and to
         allow automated, timely, and accurate recording for all recurring entries that are
         currently entered manually. (Re-Issued)
    3.   Develop an electronic integration between the subsidiary systems and the FCC financial
         management system to enable FCC component entities to process accounting
         transactions or report financial data efficiently and effectively. (Re-Issued)
Information Technology Controls

As reported in fiscal year 2009, the FCC needs to improve its entity-wide security program. An
effective security program embodies the organization’s internal control responsibilities with
respect to securing its IT infrastructure and services. OMB has defined standards within OMB,
Circular No. A-123, Management’s Responsibility for Internal Control, related to control
environment, risk assessment, monitoring, information and communication, and internal control
activities. For purposes of financial reporting, management is responsible for developing and
maintaining internal control activities that comply with OMB standards to ensure the reliability of
financial reporting.

We identified deficiencies in the FCC’s control environment, risk assessment, control activities,
and monitoring as it relates to securing FCC’s information technology infrastructure. The
application of IT is pervasive throughout the FCC and as a result these deficiencies may impact the
FCC’s ability to comply with OMB’s internal control objectives for financial reporting. We have
previously reported these deficiencies to FCC management in more detail. Each of the sections
below summarizes the reported control deficiencies.

Control Environment Findings

OMB requires management to clearly identify areas of authority and responsibility and
appropriately delegate the authority and responsibility throughout the agency. We noted that for the
first eight months of fiscal year 2010, FCC management had not appointed a Senior Agency
Information Security Officer (SAISO) dedicated to planning and overseeing the execution of the
FCC’s Security Program. In addition, we noted that the FCC had not documented and implemented
policies and procedures for directing and overseeing the USAC security program. Currently, the
FCC does not consistently exercise and document oversight of USAC’s IT Security program
although USAC collects and maintains data on behalf of the FCC.

Control Environment Recommendation

The FCC strengthens its control environment by:
4. Documenting and implementing policies and procedures for actively directing and overseeing
   the information security programs for information systems that collect and maintain FCC data,
   but are not operated by the FCC, to ensure that they are administered consistent with all
   relevant FCC, National Institute of Standards and Technology and OMB requirements and
   instructions. (Updated)

Risk Assessment Findings

OMB requires management to identify internal and external risks that may prevent the organization
from meeting its objectives. We noted that the FCC had not conducted risk assessments for its
information systems in accordance with the guidance from National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-30, Risk Management Guide for Information
Technology Systems, although the FCC’s risk assessment reports cite NIST SP 800-30 as
guidance. Specifically, FCC’s risk assessment reports did not identify threats, and vulnerabilities
identified were largely limited to technical vulnerabilities of the type detected by a vulnerability
scan and did not encompass management and operational vulnerabilities. Furthermore, controls to
mitigate risks identified in the risk assessments were not planned in system security plans. In
addition, we noted that a number of risk assessments for components of the FCC’s general support
system were outdated. We also noted that risk assessments for two applications that authenticate
users outside of the FCC did not map to the required assurance levels in OMB Memorandum 04-
04, E-Authentication Guidance for Federal Agencies, and the required e-authentication controls in
NIST SP 800-63, Electronic Authentication Guideline.

Risk Assessment Recommendations

The FCC strengthens its approach to performing risk assessments by:
5. Updating risk assessments at least every three years. (Re-Issued)
6. Considering a full range of significant risks and ensuring that control recommendations from
   risk assessments are used to create or update system security plans. (Updated)
7. Documenting e-authentication policies and procedures for ensuring the FCC's compliance with
   OMB Memorandum 04-04, E-Authentication Guidance for Federal Agencies. (Re-Issued)
8. Performing e-authentication risk assessments and updating system security plans to define for
   each e-government application the relevant authentication level and the required level of e-
   authentication controls to implement. (Re-Issued)

Control Activities Findings

OMB requires internal controls to be in place over information systems in the form of general and
application controls. General controls applies to all information systems such as servers, the
network and end-user environments, and includes agency-wide security program planning,
management, control over data center operations, and system software acquisition and
maintenance. Due to the rapid changes in information technology, controls must also adjust to
remain effective. Required control activities include policies, procedures and mechanisms in place
to help ensure that agency objectives are met. Several examples of such mechanisms include:
proper segregation of duties (separate personnel with authority to authorize a transaction, process
the transaction, and review the transaction); physical controls over assets; proper authorization; and
appropriate documentation and access to that documentation. Based on our procedures performed,
we noted the following deficiencies in FCC’s general control activities related to the FCC security
program, access controls, and change controls:

Security Program

The FCC’s controls to monitor and assess systems security had a number of deficiencies.
Procedures for completing a security authorization package were in draft form and did not contain
detailed requirements and procedures for creating a security authorization package in accordance
with NIST guidance. System security plans for several systems did not document controls that
mapped to the recommended NIST SP 800-53, Recommended Security Controls for Federal
Information Systems, minimum baseline controls. Security assessments of management and
operational controls to support the security authorization of the FCC’s information systems were
not performed. Security assessments of technical controls were incomplete. For the first six months
of fiscal year 2010, one major application was in operation without any security authorization and
the general support system’s security authorization had expired.

Access Controls

The FCC’s controls to restrict physical and logical access to FCC systems had a number of
deficiencies. Three major applications lacked documented guidance on the assignment of access
privileges, including segregation of duties. Controls for limiting physical access to computer rooms
were not sufficiently formalized. The FCC’s user account management controls were not operating
effectively to prevent logical access from being granted to users who should not have access and to
remove access from users who no longer needed it. Controls to enforce segregation of duties and to
limit privileged access were not operating effectively. The resolution of identified vulnerabilities
was not documented. Finally, the FCC’s password policies were inconsistently applied.

Change Controls

Access of developers to production was not properly restricted and changes were not consistently
tested and approved before their migration to production. Additionally, the FCC could not provide
documentation to evidence that system configurations were monitored for unauthorized changes.

Control Activities Recommendations

Security Program

The FCC strengthens its security program oversight and planning by:
9. Documenting system security plans in detail sufficient to plan system security controls for
   FCC information systems that are identical or equivalent to the NIST SP 800-53 minimum
   baseline controls. (Updated)
10. Updating security authorization packages for FCC information systems and, after planning and
    successfully testing the necessary IT security controls, re-authorizing information systems for
    operation. (Updated)
11. Revising, finalizing, and implementing procedures for completing a security authorization
    package, including planning and scoping guidance, and procedures for creating a security
    authorization package in accordance with NIST guidance and for administering the security
    authorization program across the Commission. Policies and procedures should require that
    security assessment testing cover all management, operational and technical controls in
    accordance with evaluation criteria from NIST SP 800-53a. (Updated)
Access Controls

The FCC strengthens its access controls by:
12. For newly hired employees and contractors, limiting logical access to FCC systems pending a
    favorable result from a preliminary background check. (Re-issued)
13. Implementing procedures to help ensure that users are not granted access to FCC information
    systems without documented approval. (Updated)
14. Requiring that all user access be reviewed and recertified by management and promptly
    revoking access for those users who are found to no longer need access or whose access is not
    recertified. (Re-issued)
15. Documenting the roles and permissions used within major applications. (Re-issued)
16. Identifying and documenting conflicting privileges within major applications and documenting
    procedures to help ensure separation of duties and to address developer access. (New)
17. Granting individuals computer room access only after management approval. (Re-issued)
18. Documenting and implementing procedures for documenting and tracking vulnerability
    remediation. (Re-issued)
19. Reviewing the scope and applicability of the FCC’s password policies, documenting any
    exceptions to FCC password policies, and wherever applicable, ensuring that password settings
    are consistent with the FCC’s policies. (Re-issued)
Change Controls

The FCC strengthens its change and configuration management controls by:
20. Restricting developer access to the production environment. (Re-issued)
21. Documenting a change and configuration management policy to require that changes be tested
    and approved prior to being moved into production. (Updated)
22. Implementing a change and configuration management policy by documenting and
    implementing change control and configuration management procedures for major
    applications, databases, and infrastructure components. (Updated)
Monitoring Findings

OMB requires that monitoring of the effectiveness of internal control should occur in the normal
course of business. Periodic assessments should be integrated as part of management’s continuous
monitoring of internal control, which should be ingrained in the agency’s operations. We noted that
FCC management did not perform annual security assessment testing of a representative subset of
technical, operational and management controls to support its annual Federal Information Security
Management Act of 2002 (FISMA) report to OMB and to satisfy FISMA's ongoing monitoring
requirements.

OMB also requires that deficiencies found in internal control be reported to the appropriate
personnel and management responsible for that area. Deficiencies identified, whether through
internal review or by an external audit, should be evaluated and corrected. A systematic process
should be in place for addressing deficiencies. The FCC did not provide evidence of tracking and
planning for the remediation of IT Security weaknesses. Specifically, neither agency-wide Plans of
Action and Milestones (POA&Ms) nor system-level POA&Ms were provided for KPMG’s
inspection.

Monitoring Recommendations

The FCC strengthens its monitoring controls by:
23. Documenting and implementing procedures that ensure that at least annually, the FCC
    performs security assessment testing, using the assessment cases provided by NIST SP 800-
    53a, of a subset of controls to monitor the controls’ effectiveness, with all controls being
    assessed at least once during the three-year authorization cycle. (Re-issued)
24. Documenting and implementing procedures for the creation, maintenance, and review of both
    agency and system-level POA&Ms. The FCC should document, prioritize, track and review at
    least quarterly all security weaknesses identified by external and internal reviews at the FCC
    and at outside organizations (e.g., USAC) which meet the FISMA reporting requirement
    definition of a contractor. Quarterly reviews should include reporting to the CIO. POA&Ms
    should include resources required to accomplish elements of the plan, any milestones in
    meeting the tasks, scheduled completion dates for milestones and a current status. When
    milestones are adjusted, the rationale for adjusting milestones should be documented.
    (Updated)
                                                                                                     EXHIBIT II
              STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, we have reviewed
the status of FCC’s corrective actions with respect to the findings and recommendations included in the
prior year’s report on FCC’s internal control over financial reporting dated November 12, 2009. The
following table provides our assessment of the progress the FCC has made through September 30, 2010 in
correcting the significant deficiencies identified in the fiscal year 2009 Independent Auditors’ Report.

                                           Significant Deficiencies
Recommendation      Condition                         Recommendation                               Current Status
    Number          Audit Area
I. Financial Reporting Process
        1          FCC Entity    Implement a financial system that is fully integrated and has     Updated –
                                 the ability to record proprietary and budgetary transactions      Reported in
                                 on a transaction basis and complies with the requirements         current year
                                 set forth in regulations in OMB Circular A-127. The system        recommendation
                                 should be flexible to accommodate new accounts                    #1
                                 requirements issued by FASAB, OMB and Treasury.
        2          FCC Entity    Develop a standard set of transaction codes to process all        Re-Issued –
                                 routine transactions and to allow automated, timely and           Reported in
                                 accurate recording for all recurring entries that are currently   current year
                                 entered manually.                                                 recommendation
                                                                                                   #2

        3          FCC Entity    Develop an electronic integration between the subsidiary          Re-Issued –
                                 systems and the FCC financial management system to                Reported in
                                 enable FCC component entities to process accounting               current year
                                 transactions or report financial data efficiently and             recommendation
                                 effectively.                                                      #3

II. Information Technology Control Deficiencies
        4          FCC Entity    The FCC strengthen its security program oversight                 Closed
                                 and planning by:
                                    appointing a Senior Agency Information
                                     Security Officer (SAISO) dedicated to
                                     planning, implementing and monitoring the
                                     Commission’s security program.
        5          FCC Entity    The FCC strengthen its security program oversight                 Updated –
                                 and planning by:                                                  Reported in
                                                                                                   current year
                                    formally documenting its responsibilities for                 recommendation
                                     directing and overseeing the information                      4
                                     security programs for information systems that
                                     collect and maintain FCC data, but are not
                                     operated by the FCC, to ensure they are
                                     administered consistent with all relevant FCC,
                                     NIST and OMB requirements and instructions.
        6          FCC Entity    The FCC strengthen its security program oversight                 Updated –
                                                                                                   Reported in
                                       Significant Deficiencies
Recommendation   Condition                           Recommendation                   Current Status
    Number       Audit Area
                              and planning by:                                        current year
                                                                                      recommendation
                                 revising and finalizing procedures for              9 and 11
                                  completing a C&A package in accordance with
                                  NIST guidance. Policies and procedures should
                                  require: that security assessment testing cover a
                                  representative subset of controls and be
                                  performed and directed by personnel with
                                  sufficient operational independence, and that
                                  the FCC documents system security plans in
                                  detail sufficient to plan system security
                                  controls for general support systems and major
                                  applications that are identical or equivalent to
                                  the NIST SP 800-53 minimum baseline
                                  controls.
      7          FCC Entity   The FCC strengthen its security program oversight       Updated –
                              and planning by:                                        Reported in
                                                                                      current year
                                 certifying   and    accrediting   relevant   FCC    recommendation
                                  systems.                                            10
      8          FCC Entity   The FCC strengthen its approach to performing risk      Updated –
                              assessments by:                                         Reported in
                                                                                      current year
                                 implementing procedures for performing risk         recommendations
                                  assessments that help ensure that risk              6 and 11
                                  assessments are performed in accordance with
                                  NIST guidance and consider a full range of
                                  significant    risks,    and     that    control
                                  recommendations from risk assessments are
                                  used to create or update system security plans.
      9          FCC Entity   The FCC strengthen its approach to performing risk      Re-Issued –
                              assessments by:                                         Reported in
                                                                                      current year
                                 updating risk assessments at least every three      recommendation
                                  years.                                              5
      10         FCC Entity   The FCC strengthen its approach to performing risk      Re-Issued –
                              assessments by:                                         Reported in
                                                                                      current year
                                 documenting e-authentication policies and           recommendation
                                  procedures for ensuring FCC's compliance with       7
                                  OMB Memorandum 04-04, E-Authentication
                                  Guidance for Federal Agencies.
      11         FCC Entity   The FCC strengthen its approach to performing risk      Re-Issued –
                              assessments by:                                         Reported in
                                                                                      current year
                                 performing e-authentication risk assessments        recommendation
                                  and updating system security plans to define        8
                                  for each e-government application the relevant
                                  authentication level and the required level of e-
                                  authentication controls to implement.
                                       Significant Deficiencies
Recommendation   Condition                         Recommendation                     Current Status
    Number       Audit Area
      12         FCC Entity   The FCC strengthen its access controls by:              Re-Issued –
                                                                                      Reported in
                                 documenting the roles and permissions used          current year
                                  within major applications.                          recommendation
                                                                                      15
      13         FCC Entity   The FCC strengthen its access controls by:              Re-Issued –
                                                                                      Reported in
                                 granting individuals computer room access           current year
                                  only after management approval.                     recommendation
                                                                                      17
      14         FCC Entity   The FCC strengthen its access controls by:              Updated –
                                                                                      Reported in
                                 granting access to FCC systems only after           current year
                                  approval by management.                             recommendation
                                                                                      13
      15         FCC Entity   The FCC strengthen its access controls by:              Re-Issued –
                                                                                      Reported in
                                 limiting logical access to FCC systems for          current year
                                  newly hired employees and contractors pending       recommendation
                                  a favorable result from a background check.         12
      16         FCC Entity   The FCC strengthen its access controls by:              Closed
                                 justifying the access of users with administrator
                                  or other elevated access.
      17         FCC Entity   The FCC strengthen its access controls by:              Re-Issued –
                                                                                      Reported in
                                 requiring that all user access be reviewed and      current year
                                  recertified by management and promptly              recommendation
                                  revoking access for those users who are found       14
                                  to no longer need access or whose access is not
                                  recertified.
      18         FCC Entity   The FCC strengthen its access controls by:              Re-Issued –
                                                                                      Reported in
                                 documenting and implementing procedures for         current year
                                  documenting and tracking vulnerability              recommendation
                                  remediation.                                        18
      19         FCC Entity   The FCC strengthen its access controls by:              Re-Issued –
                                                                                      Reported in
                                 reviewing the scope and applicability of the        current year
                                  FCC’s password policies, documenting any            recommendation
                                  exceptions to FCC password policies, and            19
                                  wherever applicable, ensuring that password
                                  settings are consistent with the FCC’s policies.
      20         FCC Entity   The FCC strengthen its change and configuration         Re-Issued –
                              management controls by:                                 Reported in
                                                                                      current year
                                 restricting developers’ access to the production    recommendation
                                  environment.                                        20
                                       Significant Deficiencies
Recommendation   Condition                        Recommendation                     Current Status
    Number       Audit Area
      21         FCC Entity   The FCC strengthen its change and configuration        Updated –
                              management controls by:                                Reported in
                                                                                     current year
                                 revising its draft change management policy to     recommendation
                                  include a requirement that changes be tested       21
                                  before being moved into production.
      22         FCC Entity   The FCC strengthen its change and configuration        Updated –
                              management controls by:                                Reported in
                                                                                     current year
                                 implementing change control and configuration      recommendation
                                  management procedures, including procedures        22
                                  for approving changes prior to implementation
                                  into production and procedures for maintaining
                                  records of changes to facilitate management’s
                                  review of changes made to FCC systems.
      23         FCC Entity   The FCC strengthen its monitoring controls by:         Re-Issued –
                                                                                     Reported in
                                 documenting and implementing procedures that       current year
                                  ensure that at least annually, the FCC performs    recommendation
                                  security assessment testing of a subset of         23
                                  controls to monitor the controls’ effectiveness,
                                  with all controls being assessed at least once
                                  during the three-year authorization cycle.
      24         FCC Entity   The FCC strengthen its monitoring controls by:         Updated –
                                                                                     Reported in
                                 documenting system-level POA&Ms consistent         current year
                                  with OMB and NIST guidance.                        recommendation
                                                                                     24
      25         FCC Entity   The FCC strengthen its monitoring controls by:         Updated –
                                                                                     Reported in
                                 documenting and implementing procedures for        current year
                                  the creation, maintenance, and review of           recommendation
                                  POA&Ms, including procedures to help ensure        24
                                  that the FCC documents, prioritizes, tracks and
                                  reviews at least quarterly all security
                                  weaknesses identified by external and internal
                                  reviews. Quarterly reviews should include
                                  reporting to the CIO. The rationale for
                                  adjusting milestones should be documented.
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Managing Director
Federal Communications Commission

Inspector General
Federal Communications Commission

We have audited the consolidated balance sheets of the Federal Communications Commission (FCC) as of
September 30, 2010 and 2009, and the related consolidated statements of net cost, changes in net position,
custodial activity, and combined statements of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the years then ended, and have issued our report thereon dated November 12,
2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the FCC is responsible for complying with laws, regulations and contracts applicable
to the FCC. As part of obtaining reasonable assurance about whether the FCC’s consolidated financial
statements are free of material misstatement, we performed tests of the FCC’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in OMB
Circular A-127, Financial Management Systems. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the FCC. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of certain of our tests of compliance described in the preceding paragraph, disclosed one
instance of noncompliance that is required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04, and is described in Exhibit I.

The results of our other tests of compliance described in the third paragraph of this report disclosed no
instances of noncompliance and two other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04, and are described in the following paragraph.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We identified a matter that may be reported as a violation of Federal Acquisition Regulations.
Management has also identified a matter that may be reported as a violation of the Anti-Deficiency Act.
These matters have been referred to FCC management and the Office of Inspector General and are
currently under review. The outcome of these matters, and any resulting ramifications, is not presently
known.

The FCC’s response to the instance of noncompliance identified in our audit is presented in the Agency
Financial Report. We did not audit the FCC’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the FCC in a separate letter
dated November 12, 2010.

This report is intended solely for the information and use of the FCC’s management, the FCC’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 12, 2010
                                                                                                       Exhibit I


The Federal Managers’ Financial Integrity Act (FMFIA)

The FMFIA establishes overall requirements with regard to internal control. The agency head must
establish controls that reasonably ensure that: “(i) obligations and costs are in compliance with applicable
law; (ii) funds, property, and other assets are safeguarded against waste, loss, unauthorized use or
misappropriation; and (iii) revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial and statistical
reports and to maintain accountability over the assets.”

In addition, the agency head annually must evaluate and report on the control and financial systems that
protect the integrity of Federal programs (Section 2 and Section 4 of FMFIA, respectively).

   Section 2 seeks to assess internal controls necessary to ensure obligations and costs are in compliance
    with applicable law; funds, property, and other assets are safeguarded against waste, loss, unauthorized
    use, or misappropriation; and revenues and expenditure are properly recorded and accounted for to
    permit the preparation of accounts and reliable financial and statistical reports and to maintain
    accountability of assets.
   Section 4 seeks to assess nonconformance of the agency's accounting system with the principles,
    standards, and related requirements prescribed by the Comptroller General.
Government Accountability Office (GAO) Standards for Internal Control in the Federal Government
provides guidance in complying with section 4 of FMFIA. Section 4 of FMFIA states that financial
management systems shall be designed to provide for effective and efficient interrelationships between
software, hardware, personnel, procedures, controls, and data contained within the systems. Once
implemented, this financial management system should allow an entity to prepare reliable financial
statements in a timely and efficient manner. In doing so, they shall have the following characteristics:

   Consistent Internal Controls - Internal controls over data entry, transaction processing and reporting
    shall be applied consistently throughout the system to ensure the validity of information and protection
    of Federal government resources.

   Common Transaction Processing - Transactions should be promptly recorded to maintain their
    relevance and value to management in controlling operations and making decisions. This applies to the
    entire process or life cycle of a transaction or event from the initiation and authorization through its
    final classification in summary records. In addition, control activities help to ensure that all transactions
    are completely and accurately recorded.

   Efficient Transaction Entry - Financial information is needed for both external and internal uses. It is
    required to develop financial statements for periodic external reporting, and, on a day-to-day basis, to
    make operating decisions, monitor performance, and allocate resources. Pertinent information should
    be identified, captured, and distributed in a form and time frame that permits people to perform their
    duties efficiently.

   Implementation of New Technologies - Because information technology changes rapidly, controls must
    evolve to remain effective. Changes in technology and its application to electronic commerce and
    expanding Internet applications will change the specific control activities that may be employed and
    how they are implemented, but the basic requirements of control will not have changed. As more
    powerful computers place more responsibility for data processing in the hands of the end users, the
    needed controls should be identified and implemented.
The FCC reporting component entities’ current financial systems and processes are not capable of
achieving the financial system integration standards set within GAO Standards for Internal Control in the
Federal Government.

Findings and recommendations were issued under the Financial Reporting Significant Deficiency noted in
the Independent Auditors’ Report on Internal Control Over Financial Reporting dated November 12, 2010.
                                                                Office of the Managing Director
                                                                                 MEMORANDUM




DATE:           November 12, 2010

TO:             David L. Hunt, Acting Inspector General

FROM:           Steven VanRoekel, Managing Director and Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditors’ Reports on Internal Control Over
                Financial Reporting and Compliance and Other Matters for Fiscal Year 2010


Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditors’
Report on Internal Control Over Financial Reporting and Independent Auditors’ Report on Compliance
and Other Matters. We appreciate the efforts of your team and the independent auditor, KPMG LLP, to
work with the Federal Communications Commission (Commission) throughout the fiscal year (FY) 2010
audit process. This year’s audit opinion was the result of the commitment and professionalism that both
of our offices as well as the independent auditors demonstrated during the FY 2010 audit process. During
the entire audit process the Commission worked closely with your office and the independent auditors’
team to provide necessary and timely information to facilitate an efficient audit process.

We are pleased that, for the fifth straight year, the independent auditor provided an unqualified opinion
and found that the Commission’s consolidated financial statements for FY 2010 present fairly, in all
material respects, the financial position of the Commission as of September 30, 2010. Five straight years
of clean audit opinions is an unprecedented accomplishment for the Commission. We are also pleased
that the independent auditor did not identify any material weaknesses in the Commission’s financial
reporting. We have worked very hard to continue strengthening the Commission’s internal controls and
improving its financial management.

Despite these successes, work remains here at the Commission. The FY 2010 audit report points out two
significant deficiencies related to internal controls, notes one instance of non-compliance that still needs
to be resolved, and mentions two matters that are currently under review. The primary areas of concern
relate to the financial reporting process, information technology control weaknesses, and noncompliance
with the Federal Managers’ Financial Integrity Act. We concur with the recommendations made by the
independent auditors in their report.

First, with regard to addressing the significant deficiency for the financial reporting process related to the
Commission and its reporting components, the Commission has taken significant steps throughout FY
2010 to resolve the auditors’ findings and improve the performance of its financial reporting process
through the implementation of a new core financial management system. The Commission’s new core
financial system was launched in October 2010 and the Commission is currently working to efficiently
deploy all functionality of that system. Also in FY 2010, the Commission continued to work closely with
its reporting components in their efforts to modernize their financial systems.

Second, with respect to the significant deficiency related to information technology control weaknesses,
the Commission is already working to fully assess the auditors’ recommendations and to develop
corrective action plans. Some findings are already in the process of being addressed (e.g., the
certification and accreditation of key information technology systems). During FY 2011, the Commission
will make every effort to complete corrective action for each of the recommendations associated with
these findings so as to avoid any repeat findings in this area.

Third, with respect to the instances of noncompliance with the Federal Managers’ Financial Integrity Act,
the Commission and its reporting components are committed to implementing financial systems that are
fully integrated, and that provide efficient and effective processing and reporting of accounting
transactions and financial information.

Fourth, the Other Matters reported under review as possible violations of the Federal Acquisition
Regulations and the Anti-Deficiency Act will be fully investigated in FY 2011. If any violations of the
Anti-Deficiency Act are identified after the investigation, they will be reported to the President and
Congress as required by statute and implementing guidance.

Finally, we are committed to continually strengthening the internal controls of the Commission and its
reporting components. This commitment includes developing timely, accurate, and useful performance
and financial information to ensure the most effective stewardship of both the funds that the Commission
oversees and the funds that the Commission uses to finance its operations. We look forward to working
in FY 2011 to resolve the FY 2010 audit findings and to enhance the culture of integrity, accountability,
and excellence that exists here at the Commission.




Steven VanRoekel, Managing Director
Office of Managing Director




Mark Stephens, Chief Financial Officer
Office of Managing Director
Principal Statements
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2010 and 2009
(Dollars in thousands)
                                                                    FY 2010          FY 2009
ASSETS (Note 2)
 Intragovernmental
   Fund balance with Treasury (Note 3)                          $      457,368   $      359,735
   Investments (Note 5)                                              6,087,715        6,016,693
   Accounts receivable (Note 6)                                            571              889
   Other (Note 8)                                                       33,838          400,451
 Total intragovernmental                                             6,579,492        6,777,768

 Cash and other monetary assets (Note 4)                               100,344           68,852
 Accounts receivable, net (Note 6)                                     783,620          763,843
 Loans receivable, net (Note 7)                                         48,470           83,589
 General property, plant, and equipment, net                            65,167           49,616
 Other                                                                  13,088            7,735

Total assets                                                    $    7,590,181   $    7,751,403

LIABILITIES (Note 9)
 Intragovernmental
   Debt (Note 10)                                               $       87,726   $       46,484
   Other (Note 11)
    Custodial                                                          226,400          110,808
    Other                                                               25,572            7,113
   Total other                                                         251,972          117,921

 Total intragovernmental                                               339,698          164,405

 Accounts payable                                                      120,477           79,733
 Other (Note 11)
  Deferred revenue                                                     132,386          528,234
  Prepaid contributions                                                 74,915           57,670
  Accrued liabilities for Universal Service                            622,400          591,512
  Other                                                                 49,408           62,778
 Total other                                                           879,109        1,240,194

Total liabilities                                               $    1,339,284   $    1,484,332

 Commitments and Contingencies (Note 13)

NET POSITION
 Unexpended appropriations - other funds                        $       21,183   $       44,000
 Cumulative results of operations - earmarked funds (Note 19)        6,135,941        6,051,177
 Cumulative results of operations - other funds                         93,773          171,894

Total net position                                              $    6,250,897   $    6,267,071

Total liabilities and net position                              $    7,590,181   $    7,751,403



                             The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2010 and 2009
(Dollars in thousands)
                                                                    FY 2010             FY 2009
       Program costs:
        Broadband:
         Gross costs (Note 14)                                  $       80,775      $       31,378
         Less: earned revenue (Note 14)                                (65,393)            (34,791)
         Net program costs                                              15,382              (3,413)

        Competition:
         Gross costs (Note 14)                                       9,023,883           8,219,793
         Less: earned revenue (Note 14)                               (114,755)           (114,125)
         Net program costs                                           8,909,128           8,105,668

        Spectrum:
         Gross costs (Note 14)                                         154,485             154,242
         Less: earned revenue (Note 14)                               (143,319)           (137,218)
         Net program costs                                              11,166              17,024

        Media:
         Gross costs (Note 14)                                          50,180             165,217
         Less: earned revenue (Note 14)                                (43,793)            (95,437)
         Net program costs                                               6,387              69,780

        Public Safety and Homeland Security:
         Gross costs (Note 14)                                          42,320              34,137
         Less: earned revenue (Note 14)                                (44,389)            (31,195)
         Net program costs                                              (2,069)              2,942

        Modernize the FCC:
         Gross costs (Note 14)                                          70,145              52,519
         Less: earned revenue (Note 14)                                (52,389)            (49,334)
         Net program costs                                              17,756               3,185

        Total Net Program Costs                                      8,957,750           8,195,186

        Cost not assigned to programs:
         Telecommunications Development Fund                                 7                   2
         Other expenses                                                  3,415                (593)

        Less: earned revenues not attributed to programs:
         Telecommunications Development Fund                                  (7)                 (2)

        Net cost of operations                                  $    8,961,165      $    8,194,593



                    The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2010 and 2009
(Dollars in thousands)

                                                               FY 2010                                              FY 2009
                                               Earmarked           All Other                        Earmarked          All Other
                                                   Funds              Funds            Total            Funds             Funds            Total

Cumulative Results of Operations
 Beginning Balances                        $   6,051,177   $       171,894     $   6,223,071    $   5,927,074   $       257,497    $   6,184,571

Budgetary Financing Sources
 Other adjustments (rescissions, etc.)                 -               (77)              (77)               -            (1,164)          (1,164)
 Appropriations used                                   -            41,773            41,773                -           109,698          109,698
 Non-exchange revenue (Note 19)                8,990,926                 -         8,990,926        8,240,928                 -        8,240,928

Other Financing Sources (Non Exchange)
 Transfers in/out without reimbursement                -            (23,311)         (23,311)               -           (19,444)         (19,444)
 Imputed financing                                     -             15,382           15,382                -            14,608           14,608
 Other                                                 -            (56,885)         (56,885)               -          (111,533)        (111,533)

Total Financing Sources                        8,990,926            (23,118)       8,967,808        8,240,928            (7,835)       8,233,093
Net Cost of Operations                         8,906,162             55,003        8,961,165        8,116,825            77,768        8,194,593
Net Change                                        84,764            (78,121)           6,643          124,103           (85,603)          38,500

Cumulative Results of Operations               6,135,941            93,773         6,229,714        6,051,177           171,894        6,223,071


Unexpended Appropriations
 Beginning Balances                                    -            44,000           44,000                 -            11,273          11,273

Budgetary Financing Sources
 Appropriations received                               -             18,956           18,956                -            51,765           51,765
 Appropriations transferred in/out                     -                  -                -                -            90,660           90,660
 Appropriations used                                   -            (41,773)         (41,773)               -          (109,698)        (109,698)
 Total Budgetary Financing Sources                     -            (22,817)         (22,817)               -            32,727           32,727

Total Unexpended Appropriations                        -            21,183           21,183                 -            44,000          44,000

Net Position                               $   6,135,941   $       114,956     $   6,250,897    $   6,051,177   $       215,894    $   6,267,071




                                The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2010 and 2009
(Dollars in thousands)
                                                                               FY 2010                                FY 2009

                                                                                   Non Budgetary                           Non Budgetary
                                                                                   Credit Program                          Credit Program
                                                                   Budgetary       Financing Acct         Budgetary        Financing Acct
Budgetary Resources:

Unobligated balance, brought forward, October 1:               $      3,035,116    $        12,344    $       2,282,036    $        53,904
Recoveries of prior year unpaid obligations                           1,043,329                -              1,118,204                -
Budget authority:
 Appropriations received                                              9,005,071                -              8,425,431                -
 Borrowing authority (Note 16)                                              -               56,732                  -               63,745
 Spending authority from offsetting collections
   Earned:
     Collected                                                         450,207              14,873             441,543             148,107
     Change in receivables from Federal sources                            -                   -                   (15)                -
   Change in unfilled customer orders:
     Advance received                                                    16,003                -                  1,336                -
   Previously unavailable                                                   -                  -                 54,130                -
 Budget authority subtotal                                            9,471,281             71,605            8,922,425            211,852

Nonexpenditure transfers, net, anticipated and actual                       -                  -                 90,660                -
Temporarily not available pursuant to Public Law                         (5,739)               -                (54,185)               -
Permanently not available                                                   (75)           (15,490)              (1,164)          (129,972)

Total budgetary resources                                      $     13,543,912    $        68,459    $      12,357,976    $       135,784

Status of Budgetary Resources:

Obligations incurred: (Note 15)
 Direct                                                        $     10,958,600    $        64,072    $       9,321,120    $       123,440
 Reimbursable                                                            17,740                -                  1,740                -
 Subtotal                                                            10,976,340             64,072            9,322,860            123,440

Unobligated balance - available:
 Apportioned                                                            244,720                -                350,887                -
 Exempt from apportionment                                            2,164,357                -              2,656,578                -
Unobligated balance not available                                       158,495              4,387               27,651             12,344

Total status of budgetary resources                            $     13,543,912    $        68,459    $      12,357,976    $       135,784



Change in Obligated Balance:

Obligated balance, net
 Unpaid obligations, brought forward, October 1                $      3,157,411    $           -      $       3,588,774    $           -
 Uncollected customer payments from
 Federal sources, brought forward, October 1                                -                  -                    (15)               -
 Total unpaid obligated balance, brought forward, net                 3,157,411                -              3,588,759                -

Obligations incurred net (+/-)                                       10,976,340             64,072            9,322,860            123,440
Gross outlays                                                        (9,354,171)           (64,072)          (8,636,019)          (123,440)
Recoveries of prior year unpaid obligations, actual                  (1,043,329)               -             (1,118,204)               -
Change in uncollected customer payments from Federal sources                -                  -                     15                -
 Total, unpaid obligated balance, net, end of period                  3,736,251                -              3,157,411                -

Obligated balance, net, end of period
 Unpaid obligations                                                   3,736,251                -              3,157,411                -
 Total, unpaid obligated balance, net, end of period                  3,736,251                -              3,157,411                -


Net Outlays

Net Outlays:
  Gross outlays                                                $      9,354,171 $           64,072    $       8,636,019 $          123,440
  Offsetting collections                                               (466,210)           (14,873)            (442,879)          (148,107)
  Distributed offsetting receipts                                      (110,015)               -               (189,641)               -
  Net outlays                                                  $      8,777,946 $           49,199    $       8,003,499 $          (24,667)




                                      The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2010 and 2009
(Dollars in thousands)

                                                                       FY 2010                   FY 2009
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                               $         391,144         $      16,791,163
   Fines and Penalties                                                        10,438                    17,745
   Credit Reform                                                               6,961                    11,915
   TDA Interest                                                                    7                         2
 Total Cash Collections                                                      408,550                16,820,825

 Accrual Adjustments
  Spectrum Auctions                                                                -                    (2,492)
  Fines and Penalties                                                            6,061                  (9,922)
 Total Accrual Adjustments                                                       6,061                 (12,414)

Total Custodial Revenue                                                      414,611                16,808,411

Disposition of Collections:
 Transferred to Others:
    Recipient A: U.S. Treasury                                               (17,399)                  (29,660)
   Recipient B: Finance Acct. (Recoveries)                                       -                     (87,238)
   Recipient C: National Telecommunications & Information Admin.            (196,613)              (16,689,557)

 (Increase)/Decrease in Amounts Yet to be Transferred                       (115,592)                   83,046
 Retained by the Reporting Entity                                            (85,007)                  (85,002)

Net Custodial Activity                                             $               -         $             -




                          The accompanying notes are an integral part of these statements.
Notes to the Principal Financial Statements
FOR THE YEARS ENDED SEPTEMBER 30, 2010 AND 2009
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)


Note 1 - Summary of Significant Accounting Policies

A. Reporting Entity

The Commission is an independent United States Government agency, established by the
Communications Act (Act) of 1934, as amended. The Commission is charged with regulating interstate
and international communications by radio, television, wire, satellite, and cable. The Commission’s
jurisdiction spans the 50 states, the District of Columbia, and the U.S. possessions. Five commissioners
direct the Commission; they are appointed by the President of the United States and confirmed by the
Senate for five-year terms, except when filling an unexpired term or serving in holdover status.

The Commission is comprised of three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

B. Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. generally accepted accounting principles (GAAP) and
the form and content for Federal entity financial statements specified by OMB Circular No. A-136,
“Financial Reporting Requirements.”

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the amounts reported in the financial statements. Actual results may
differ from those estimates.

C. Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The Commission may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.
Note 1 - Summary of Significant Accounting Policies (continued)

D. Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks in accounts maintained by the administrators Universal Service Administrative
Company (USAC), National Exchange Carrier Association (NECA), and Welch LLP, which contain the
names of those entities and also refer to the Commission or the fund for which they serve as administrator
or billing and collection agent. Cash on deposit is collateralized by the Federal Reserve.

E. Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

F. Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from the public and other federal entities.
Gross receivables are reduced to net realizable value by an allowance for doubtful accounts.

G. Loans Receivable, Net

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. The
present value is calculated as the estimated cash outflows over the life of the loans, less the present value
of the estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a
similar maturity term. Direct loans are reported net of an allowance for subsidy at the present value.

H. Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25 or more and all internally developed software with a development cost of
$50 or more, and with an estimated useful life of two years or greater, are capitalized. Bulk purchases of
similar items, individually worth less than $25 but collectively worth more than $250, are also capitalized
using the same equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful lives of the items. The useful lives used are: forty years for
buildings, seven years for non-computer equipment, five years for computers and vehicles, and three
years for software. Neither land, including permanent improvements, nor software in development is
depreciated. Normal maintenance and repair costs are expensed as incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.
Note 1 - Summary of Significant Accounting Policies (continued)

I. Other Assets

Other Assets represent the balance of transfers less expenses made by the USF to the USAC to fund
administrative costs in advance. Advances are drawn down as expenses are incurred. Other Assets –
Intragovernmental are discussed in Note 8.

J. Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

K. Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five- and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

The USF and NANP collect contributions from U.S., Canadian, and Caribbean carriers to cover the costs
of the programs. Some carriers have the option of paying monthly or annually. The unearned portion of
annual contributions is recognized as deferred revenue.

L. Debt

This account represents amounts due to the U.S. Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payments
on debt are calculated annually and remitted to BPD at the end of the fiscal year. These payments are
recorded in a receipt account maintained by the Commission.

M. Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The Commission does not recognize
any liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment
benefits. The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and
recognizes imputed financing related to these costs on the Statement of Changes in Net Position.
Note 1 - Summary of Significant Accounting Policies (continued)

M. Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS) or the Federal Employee
Retirement System (FERS). Under CSRS, the Commission makes matching contributions equal to seven
percent of basic pay. For FERS employees, the Commission contributes the employer’s matching share
for Social Security, contributes an amount equal to one percent of employee pay to a savings plan, and
matches up to an additional four percent of pay. Most employees hired after December 31, 1983, are
covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined by using historical benefit payment patterns
related to a specific incurred period to predict the ultimate payment related to that period. The
Department of Labor (DOL) determines no actuarial liability for the Commission, due to the
immateriality to the Federal Government as a whole.

The unfunded Federal Employees’ Compensation Act (FECA) liability covers unemployment
compensation and medical benefits. The calculation takes the amount of benefit payments over the last
nine to twelve quarters and then calculates the annual average of payments. The compensation and
medical payments can be found in the chargeback reports that are issued by DOL.

N. Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

O. Revenue and Other Financing Sources

Regulatory Fee Offsetting Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993
directed the Commission to assess and collect regulatory fees to recover the costs incurred in carrying out
certain provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by Congress,
incurred in carrying out its strategic goals of Broadband, Competition, Spectrum, Media, Public Safety
and Homeland Security, and Modernizing the Commission. These fees were established by congressional
authority, and, consistent with OMB Circular No. A-25 revised, User Charges, the Commission did not
determine the full costs associated with its regulatory activity in establishing regulatory fees. Since 1993,
Congress has annually reviewed the regulatory fee collection requirements of the Commission and
established the total fee levels to be collected. Fees collected up to the level established by Congress are
applied against the Commission’s annual appropriation at the close of each fiscal year. The regulatory fee
levels of $335,794 for FY 2010 and $341,875 for FY 2009 were achieved.
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

Competitive Bidding System Offsetting Collections (Exchange) – One of the Commission’s primary
functions is managing the spectrum auction program. Proceeds from the auctions are initially remitted to
the Commission and are later transferred to the U.S. Treasury, net of anticipated auction related costs
(under 47 U.S.C. § 309, the Commission may retain a portion of the spectrum auction proceeds to offset
the cost of performing the auction function). Collections used to offset the cost of performing auctions-
related activity were capped at $85,000 in FY 2010 and FY 2009.

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined in the market place at the time of auction. The Commission
recognized total custodial revenue related to spectrum auctions net of accrual adjustments of $391,144 in
FY 2010 and $16,788,671 in FY 2009.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to impose and
collect application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which the
Commission has jurisdiction. The Commission amends its Schedule of Application Fees (47 C.F.R. §
1.1102 et seq.) to adjust the fees for processing applications and other filings. Section 8(b) of the Act, as
amended, requires the Commission to review and adjust its application fees every two years. The
adjusted or increased fees reflect the net change in the Consumer Price Index for all Urban Consumers
(CPI-U), calculated over a specific period of time. Application fees are deposited in the Treasury and are
not available for the Commission’s use. Application fees collected totaled $23,311 in FY 2010 and
$19,444 in FY 2009.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. The
Commission executed agreements totaling $21,410 in FY 2010 and $1,583 in FY 2009.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expenses
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation of $335,794 for FY
2010 and $341,875 for FY 2009 is fully funded by regulatory fee collections.
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

Subsidy Estimates and Reestimates (Financing Source) – The Commission receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The Commission received an appropriation for an upward subsidy of $18,956 in FY 2010
and $51,765 in FY 2009. These appropriations are available until used.

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated and earmarked receipts and are accounted for as a budgetary financing source.

Digital to Analog Converter Box Program – DTV Outreach Recovery Act Funds (Financing Source) –
During FY 2009 the National Telecommunications and Information Administration (NTIA), U.S.
Department of Commerce (DOC), transferred $70,605 in appropriated funds to the Commission for the
purposes of consumer education and outreach regarding the digital television transition. These funds are
part of the American Recovery and Reinvestment Act (ARRA) of 2009.

Broadband Technology Opportunities Program (BTOP) – National Broadband Plan Recovery Act Funds
(Financing Source) - During FY 2009, the NTIA transferred $20,055 in appropriated funds to the
Commission for the purpose of establishing benchmarks to ensure that all people of the United States
have access to broadband capability. These funds are part of the ARRA of 2009. The Commission also
entered into additional reimbursable agreements with NTIA and United States Department of Agriculture
(USDA) for the detail of various Commission employees to provide advice and assistance in the
implementation and administration of BTOP as well as providing for the use of the Tower Construction
Notification System in support of the Broadband Initiatives Program. NTIA and USDA advanced the
Commission $724 in appropriated funds for these efforts. These funds are part of the ARRA of 2009.

Broadband Technology Opportunities Program – National Broadband Map Recovery Act Funds
(Financing Source) – During FY 2010, the NTIA entered into a reimbursable agreement with the
Commission to provide technical and other services needed to develop a comprehensive nationwide
inventory map of existing broadband service capability and availability in the United States. NTIA
advanced the Commission a total of $18,650 in ARRA funds to support this effort.

Allocation of Exchange Revenues
The Commission directly assigns exchange revenue from reimbursable work agreements to specific
programs on the Statement of Net Cost. Exchange revenue from application fees and offsetting
collections related to Regulatory Fees and the Competitive Bidding System is assigned to programs in
direct proportion to the level of direct and indirect costs recognized for each program. Radio Spectrum
Auction proceeds are exchange revenue but are recorded on the Statement of Custodial Activity because
the Commission recognizes virtually no cost in connection with the revenues earned in the spectrum
auction.

Reprogramming
The Commission received approval in FY 2010 to reprogram $4,500 of prior year unobligated funds to
enable the Commission to focus on important media issues and continue to make a critical investment in
the people needed to transform the Commission into a twenty-first century agency for the information
age.
Note 1 - Summary of Significant Accounting Policies (continued)

P. Transactions with Related Parties

The Commission has a direct oversight relationship with the administrators and billing and collection
agents (B&C agents) of funds that are components under the overall Commission entity. These
organizations are the USAC, which is both the administrator and B&C agent for the four USF support
mechanisms, the NECA which is both the administrator and B&C agent for the TRS Fund, and Neustar
which is the administrator for the NANP fund and Welch LLP which is the B&C agent for the NANP
fund. The Commission approves the administrative costs paid to these entities from the respective funds
that they manage. The administrative costs cover expenses such as the salaries and benefits for the
employees dedicated to managing the funds; rent and utilities for office space used; accounting and other
financial reporting related services; and other management activities. All related party balances as of and
for the years ended September 30, 2010 and 2009 are listed below:

                                 USF           TRS           NANP           Total

FY 2010:
Administrative Fees          $ 108,105     $     1,521   $     3,899    $   113,525
Due To                           7,941               -             -          7,941
Due From                                             -             -              -
Total                        $ 116,046     $     1,521   $     3,899    $   121,466

FY 2009:
Administrative Fees          $ 182,711     $     1,390   $     3,932    $   188,033
Due To                               -              98             -             98
Due From                         7,677               -             -          7,677
Total                        $ 190,388     $     1,488   $     3,932    $   195,808


Q. Net Position

Net Position is the residual difference between assets and liabilities and is comprised of Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net difference since the inception of the
Commission of (1) expenses and losses and (2) financing sources including appropriations, revenues, and
gains.
Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2010 and 2009:

                                                                       FY 2010                      FY 2009

 Intragovernmental:
   Fund Balance with Treasury (FBWT)                              $          261,822            $       143,772
   Accounts Receivable, Net                                                      556                        874
   Other (Note 8)                                                             33,838                    400,451
 Total Intragovernmental                                                     296,216                    545,097

 Cash and Other Monetary Assets                                                   -                      21,012
 Accounts Receivable, Net                                                    21,598                      18,053
 Total Non-entity Assets                                                    317,814                     584,162
 Total Entity Assets                                                      7,272,367                   7,167,241
 Total Assets                                                     $       7,590,181             $     7,751,403


Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $250,788 in FY 2010 and $132,199 in FY 2009. Non-entity
Cash and Other Monetary Assets also consist of deposits made by spectrum auction bidders that are held
outside of Treasury. Receivables considered non-entity are for regulatory fees, application fees, fines and
forfeitures, spectrum auction receivables, and International Telecommunications Settlement (ITS)
charges.

Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury as of September 30, 2010 and 2009:

FY 2010
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds    Total

Unobligated Balance
 Available                            $    44,972 $            4,387 $            - $     49,359
 Unavailable                               61,004                  -              -       61,004
Obligated Balance not yet Disbursed        85,183                  -              -       85,183
Non-Budgetary FBWT                              -                  -        261,822      261,822
Total                                 $   191,159 $            4,387 $      261,822 $    457,368



FY 2009
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds    Total

Unobligated Balance
 Available                            $    48,209 $           12,344 $            - $     60,553
 Unavailable                               57,645                  -              -       57,645
Obligated Balance not yet Disbursed        97,765                  -              -       97,765
Non-Budgetary FBWT                              -                  -        143,772      143,772
Total                                 $   203,619 $           12,344 $      143,772 $    359,735
Note 3 - Fund Balance with Treasury (continued)

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the credit reform program account and the no-year accounts used to
carry over spectrum auction funds, offsetting collections, excess regulatory fees, and the Office of
Inspector General USF funds.
Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the Commission unless they are properly identified or reclassified as
Commission funds. Otherwise, these funds are returned to the depositor or transferred to the Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2010 and 2009:


                                               FY 2010                 FY 2009

Cash and Other Monetary Assets             $    100,344            $     68,852

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash and other monetary assets is reinvested, with the exception of interest earned on third-party
deposits, which is transferred to the Telecommunications Development Fund (TDF).

In FY 2010, Cash and Other Monetary Assets included no deposits or related accrued interest being held
for spectrum auctions, $97,417 in USF contributions and related accrued interest being held for
distribution, and $2,927 in NANP deposits and related accrued interest.

In FY 2009, Cash and Other Monetary Assets included $21,012 in deposits or related accrued interest
being held for spectrum auctions, $44,199 in USF contributions and related accrued interest being held
for distribution, and $3,641 in NANP deposits and related accrued interest.
Note 5 - Investments

The following summarizes Investments as of September 30, 2010 and 2009:


                                                                 Amortized                                 Market
                                     Purchase     Amortization   (Premium)    Interest    Investments,     Value
                                       Cost         Method        Discount   Receivable       Net        Disclosures

FY 2010
Intragovernmental Securities:

 Marketable Securities
 Treasury Bills                  $    4,264,815       EI         $    2,370 $         - $    4,267,185   $ 4,267,642
 Treasury Notes                       1,821,636       EI             (5,770)      4,664      1,820,530     1,821,310
 Total                           $    6,086,451                  $   (3,400) $    4,664 $    6,087,715   $ 6,088,952

FY 2009
Intragovernmental Securities:

 Marketable Securities
 Treasury Bills                  $    5,534,226       EI         $    4,844 $         - $    5,539,070   $ 5,541,136
 Treasury Notes                         475,786       EI             (1,233)      3,070        477,623       475,891
 Total                           $    6,010,012                  $    3,611 $     3,070 $    6,016,693   $ 6,017,027

EI - Effective Interest Method

All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of earmarked funds in Note 19.

The cash receipts collected from the public for the USF are used to purchase federal securities. Treasury
securities are an asset to the USF and a liability to the U.S. Treasury. Because the USF and the U.S.
Treasury are both parts of the Government, these assets and liabilities offset each other from the
standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Government-wide financial statements.

Treasury securities provide the USF with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the USF requires redemption of these securities to make
expenditures, the Government finances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the Government finances all other expenditures.
Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2010 and 2009:

FY 2010
                                                 Intragovernmental                    Public                  Total

 Gross Accounts Receivable                       $                   571    $              1,236,959 $        1,237,530
 Allowance for Doubtful Accounts                              (        -)                   (453,339)          (453,339)
Net Accounts Receivable                          $                   571    $                783,620 $          784,191



FY 2009
                                                 Intragovernmental                    Public                  Total

 Gross Accounts Receivable                       $                   889    $              1,172,675 $        1,173,564
 Allowance for Doubtful Accounts                              (        -)                   (408,832)          (408,832)
Net Accounts Receivable                          $                   889    $                763,843 $          764,732



Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion is determined by applying predetermined percentages against the respective date the receivable
was established. The current formula for the Commission’s allowance is 25% for receivables 91-180
days outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable. The general allowance is calculated by multiplying the receivable amounts
by the percentage of the estimated uncollectible amount as determined by a review of historical collection
rates by type of receivable.

The Notice of Apparent Liabilities (NAL) receivables represent notifications of a forfeiture, subject to
final determination. The NAL receivables are included under the Forfeitures category in the table below.
While these receivables are included on the Treasury Report on Receivables at the request of Treasury,
the ability to collect these receivables is not determined until a final judgment is issued. A 100%
allowance is made for all NAL receivables. Similarly, the Commitment Adjustment (COMAD) for
Schools and Libraries audit receivables are subject to appeal and are not considered final until the appeals
period has lapsed or a final determination has been issued. The COMAD audit receivables for Schools
and Libraries have a 74% allowance in FY 2010 and FY 2009.


                                                         FY 2010                                                   FY 2009

                                     Accounts                                                   Accounts
                                    Receivable           Allowance              Net            Receivable         Allowance          Net

USF                             $        973,987     $      (245,241)   $        728,746   $        936,300   $      (218,481)   $    717,819
COMAD - Schools and Libraries            124,859             (91,896)             32,963            104,818           (77,145)         27,673
Regulatory Fees                           29,832             (18,581)             11,251             29,452           (15,159)         14,293
Spectrum Auction                          21,254             (21,254)                  -             21,246           (21,246)              -
Forfeitures                               70,323             (65,393)              4,930             69,821           (68,237)          1,584
Other                                     17,275             (10,974)              6,301             11,927            (8,564)          3,363
Total                           $      1,237,530     $      (453,339)   $        784,191   $      1,173,564   $      (408,832)   $    764,732
Note 7 – Loans Receivable, Net

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they become due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The Commission’s installment loan
portfolio is tracked under ten cohorts. The last active loan matured in April 2007.

As required under the FCRA of 1990, as amended, the Commission coordinates with the OMB in
developing estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates
and reestimates. The most recent subsidy reestimate was completed in September 2010 for actual
performance data through June 30, 2010. The reestimate resulted in a net upward adjustment, including
interest on the reestimate, of $40,118 reported in the FY 2010 financial statements.

Direct Loans

                        Loans                                           Allowance for    Value of
                        Receivable,     Interest        Other           Subsidy Cost     Assets Related
Loan Program            Gross           Receivable      Receivables    (Present Value)   to Direct Loans

Spectrum Auctions:
   FY 2010 Bal.         $ 197,837       $   15,410      $    1,483       $   (166,260)    $     48,470

    FY 2009 Bal.        $ 201,965       $   15,467      $    1,408       $   (135,251)    $     83,589

Interest accrued on bankrupt and defaulted loans totaled $15,410 in FY 2010 and $15,467 in FY 2009.

Other Receivables is composed of outstanding late fees on the loans receivable.
Note 7 – Loans Receivable, Net (continued)

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2010 or FY 2009.

Subsidy Expense for Direct Loans by Program and Component

Direct Loan Modifications and Reestimates:
                                             Interest Rate       Technical                 Total
Loan Program           Modifications         Reestimates         Reestimates               Reestimates

Spectrum Auctions:
   FY 2010 (Net)       $         -           $          -        $      40,118             $      40,118

   FY 2009 (Net)       $         -           $          -        $     (43,179)            $    (43,179)


Schedule for Reconciling Subsidy Cost Allowance Balances

                                                                 FY 2010                  FY 2009
Beginning Balance of the Subsidy Cost Allowance              $   135,251          $        40,926

Adjustments:
       Recoveries                                                     16                     87,309
       Loans written off                                          (3,975)                   (8,137)
       Subsidy allowance amortization                             (5,150)                   (4,483)
       Other                                                           -                    62,815
Ending balance before reestimates                                126,142                   178,430

Subsidy reestimates:
       Technical/default reestimate                                  40,118                (43,179)

Ending balance of the subsidy cost allowance                 $ 166,260            $        135,251


Administrative Expense                                            FY 2010                 FY 2009

   Spectrum Auctions                                         $         3,572          $        3,383
Note 8 – Other Assets

The Commission was required by the Digital Television Transition and Public Safety Act of 2005 to
transfer the proceeds received from its competitive licensing bidding system for recovered analog auction
spectrum licenses into the Digital Television Transition and Public Safety Fund (the Fund) by June 30,
2008. At the time of transfer and through September 30, 2008, there was $17,177,707 in proceeds that
had not been earned by the Federal government because the licenses related to these proceeds had not
been granted. As the custodian for this spectrum, the Commission retained a deferred revenue liability to
the public for this amount in the event that any of these proceeds are required to be refunded. As an offset
to the liability, the Commission recognized an Intragovernmental Other Asset from the National
Telecommunications and Information Administration (NTIA) who held the related Fund Balance. The
NTIA recorded a corresponding Other Liability that eliminates with the Commission Other Asset for
Governmentwide Financial Reporting purposes. The Commission has granted $366,613 to reduce the
September 30, 2009 Other Asset balance of $400,451 down to $33,838 as of September 30, 2010. There
is a corresponding balance of $33,838 in Deferred Revenue at September 30, 2010 that relates to Auction
#73 licenses that have not yet been granted.

Note 9 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2010
and 2009:
                                                              FY 2010             FY 2009
        Intragovernmental:
             Other:
                 FECA Liability                              $       590          $     561
                 GSA Real Estate Taxes                             5,335              2,095
        Other:
                 Unfunded Leave                                   20,691             19,622
                 Accrued Liabilities for Universal Service       622,401            591,512
        Total liabilities not covered by budgetary resources     649,017            613,790
        Total liabilities covered by budgetary resources         690,267            870,542
        Total Liabilities                                    $ 1,339,284        $ 1,484,332

Note 10 - Debt

                               FY 2009                          FY 2009                    FY 2010
                               Beginning       Net              Ending      Net            Ending
                               Balance         Borrowing        Balance     Borrowing      Balance

Debt to the Treasury           $ 112,711       $ (66,227)       $ 46,484     $ 41,242       $ 87,726

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.
Note 11 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2010 and 2009:

FY 2010                                     Non-Current        Current           Total
Intragovernmental
     Custodial Liability                    $        -     $     226,400     $    226,400
     Other                                           -            25,572           25,572
Total Intragovernmental                     $        -     $     251,972     $    251,972

Deferred Revenue                            $   26,637     $     105,749     $    132,386
Prepaid Contributions                                -            74,915           74,915
Accrued Liabilities for Universal Service            -           622,400          622,400
Other                                                -            49,408           49,408
Total Other Public                          $   26,637     $     852,472     $    879,109



FY 2009                                     Non-Current        Current           Total
Intragovernmental
     Custodial Liability                    $        -     $     110,808     $    110,808
     Other                                           -             7,113            7,113
Total Intragovernmental                     $        -     $     117,921     $    117,921

Deferred Revenue                            $   24,920     $     503,314     $   528,234
Prepaid Contributions                                -            57,670          57,670
Accrued Liabilities for Universal Service            -           591,512         591,512
Other                                                             62,778          62,778
Total Other Public                          $   24,920     $   1,215,274     $ 1,240,194


The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees,
and interest revenue on auction deposits (held for TDF). Deferred revenue represents regulatory fees,
spectrum auction revenue, or contributor payments that have been received but not earned by the
Commission.

Prepaid Contributions include USF and NANP contribution overpayments that may be refunded or used
to offset future payments. Accrued Liabilities for Universal Service represent liabilities recorded by the
USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month. Remaining
Other Liabilities primarily represent anticipated payments for services received, but not billed and
Deposit/Unapplied Liability which represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.
Note 12 - Leases

Operating Leases

The Commission has operating leases for rental of office space. As a Federal agency, the Commission is
not liable for any lease terms beyond one year. The Commission anticipates that space levels consistent
with FY 2010 will be required for the next five years and has estimated space payments consistent with
the schedule below. No estimates beyond five years have been provided because of the cancelable nature
of the agreements.

Anticipated lease requirements are as follows:

        Fiscal Year                              Building
            2011                            $     46,251
            2012                                  47,235
            2013                                  48,298
            2014                                  49,389
            2015                                  50,508
    Total Future Lease Payment              $    241,681

Note 13 - Commitments and Contingencies

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the Schools and Libraries, High Cost, and Low
Income programs which might result in future proceedings or actions. Similarly the Commission, NECA,
and the Department of Justice are investigating several cases related to the TRS funds. The complexity of
these actions precludes management from estimating the total amount of recovery that may result from
these actions.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, several ongoing bankruptcy proceedings are related to the loan portfolio.
In the opinion of Commission management, the ultimate resolution of proceedings, actions and claims
will not materially affect the Commission’s financial position or results of operations

The Commission has examined its obligations related to cancelled authority and believes it has no
outstanding commitments requiring future resources other than those as disclosed in Note 9.

In September 2007, the National Treasury Employees Union (NTEU) filed a grievance with the
Commission under the Federal Labor Standards Act (FLSA) alleging that certain Commission bargaining
unit employees were not sufficiently compensated for overtime work. It is reasonable to believe that a
Commission loss on some issues is a possible outcome. However, it is impossible to estimate the
monetary impact of the grievance at this time.
Note 14 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent interest expense paid by the Commission on outstanding
credit reform borrowing. Additional amounts are also recognized for goods and services purchased by the
Commission from other Federal agencies.

Program Costs - FY 2010
                Program               Intragovernmental     Public            Total
Broadband                                        17,197 $        63,578   $        80,775
Competition                                      30,157       8,993,726         9,023,883
Spectrum                                         33,885         120,600           154,485
Media                                            11,871          38,309            50,180
Public Safety and Homeland Security              12,437          29,883            42,320
Modernize the FCC                                14,335          55,810            70,145
Total                                 $         119,882 $     9,301,906   $     9,421,788

Program Earned Revenue - FY 2010
                Program               Intragovernmental     Public            Total
Broadband                             $            -    $        65,393   $        65,393
Competition                                        -           114,755            114,755
Spectrum                                         4,262         139,057            143,319
Media                                              -             43,793            43,793
Public Safety and Homeland Security              2,593           41,796            44,389
Modernize the FCC                                                52,389            52,389
Total                                 $         6,855   $      457,183    $       464,038

Program Costs - FY 2009
                Program               Intragovernmental     Public            Total
Broadband                             $           9,518 $        21,860   $        31,378
Competition                                      29,311       8,190,482         8,219,793
Spectrum                                         31,374         122,868           154,242
Media                                            25,488         139,729           165,217
Public Safety and Homeland Security              10,369          23,768            34,137
Modernize the FCC                                14,525          37,994            52,519
Total                                 $         120,585 $     8,536,701   $     8,657,286

Program Earned Revenue - FY 2009
                Program               Intragovernmental     Public            Total
Broadband                             $            -    $        34,791   $        34,791
Competition                                        -           114,125            114,125
Spectrum                                         5,729         131,489            137,218
Media                                              -             95,437            95,437
Public Safety and Homeland Security               (166)          31,361            31,195
Modernize the FCC                                  -             49,334            49,334
Total                                 $          5,563 $       456,537    $       462,100
Note 15 - Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

The following summarizes Apportionment Categories of Obligations          Incurred for the years ended
September 30, 2010 and 2009:
                                        FY 2010                                  FY 2009
                                 Budgetary    Non-Budgetary               Budgetary   Non-Budgetary
Direct
     Category A                $     420,586 $            -               $   428,416 $              -
     Category B                      763,872         64,072                   824,764          123,440
     Exempt from Apportionment     9,774,142              -                 8,067,940                -
Total Direct                   $ 10,958,600 $        64,072               $ 9,321,120 $        123,440

Reimbursable
    Category A                      $       17,740   $             -      $     1,740   $              -

Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

Note 16 - Terms of Borrowing Authority Used

Maturity Dates :                         FY 2010                 FY 2009
September 30, 2009                      $      -               $       -
September 30, 2010                             -                        -
September 30, 2011                        56,732                   63,745
Total Borrowing Authority Used          $ 56,732                $ 63,745

The Commission used $56,732 in borrowing authority for the year ending September 30, 2010. The
Commission used $63,745 in borrowing authority for the prior year ending September 30, 2009. This
authority was used to extend the maturity dates of the debt owed to BPD. The Commission anticipates
that this borrowing will be repaid from proceeds generated from the recovery of funds related to bankrupt
and defaulted loans.
Note 17 – Legal Arrangements Affecting Use of Unobligated Balances

Pursuant to Public Law 111-8, offsetting collections received in excess of $335,794 in FY 2010 shall not
be available for obligation and any remaining offsetting collections from prior years collected in excess of
the amount specified for collection in each such year otherwise becoming available on October 1, 2009,
are not available for obligation.

Note 18 - Explanation of Differences Between the Statement of Budgetary Resources (SBR) and the
Budget of the U.S. Government

There were no material differences between the Statement of Budgetary Resources for FY 2009 and the
amounts presented in the 2011 President’s Budget. The FY 2011 Budget of the United States Government
(President’s Budget) with actual numbers for FY 2010 has not been published. Pursuant to 31 USC §
1105, the Budget of the United States Government will be released the first Monday in February, and will
be available at the following website: http://www.whitehouse.gov/omb.

Note 19 – Earmarked Funds

U.S. telecommunications companies are obligated to make contributions to the USF and the TRS. These
contributions are accounted for in the Budget of the U.S. Government as the “Universal Service Fund.”
The Commission currently recognizes the contributions collected under the USF Program as non-
exchange revenue on its Statement of Changes in Net Position, and the related disbursements as program
expenses on the Statement of Net Cost.
Note 19 – Earmarked Funds (continued)

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program as of September 30, 2010 and 2009:


                                                       FY 2010                    FY 2009
Balance Sheet
ASSETS
Investments                                     $            6,087,715     $           6,016,693
Cash and other monetary assets                                  97,417                    44,199
Accounts receivable, net                                       775,594                   757,347
General property, plant, and equipment, net                     10,771                    15,244
Other assets                                                    13,024                     7,677
  Total assets                                  $            6,984,521     $           6,841,160

LIABILITIES
Accounts payable                                $             120,149      $              77,954
Deferred revenue                                               31,150                     62,875
Prepaid contributions                                          74,881                     57,642
Accrued liabilities                                           622,400                    591,512
Total liabilities                               $             848,580      $             789,983

Cumulative results of operations                $            6,135,941     $           6,051,177

  Total liabilities and net position            $            6,984,521     $           6,841,160

Statement of Net Cost
Gross program costs                             $            8,906,162     $           8,116,825
Less earned revenues                                                 -                         -
Net cost of operations                          $            8,906,162     $           8,116,825

Statement of Changes in Net Position
Net position beginning of period                $            6,051,177     $           5,927,074

Non-exchange revenue                                         8,990,926                 8,240,928
Transfers in/out without reimbursement                               -                         -
Net cost of operations                                       8,906,162                 8,116,825
Change in net position                                          84,764                   124,103

Net position end of period                      $            6,135,941     $           6,051,177
Note 20 – Undelivered Orders at the End of the Period

The amount of budgetary resources obligated for undelivered orders totaled $3,585,456 as of September
30, 2010 and $3,058,208 as of September 30, 2009.

Note 21 – Reconciliation of Net Cost of Operations (Proprietary) to Budget (Formerly the
Statement of Financing)

As of September 30, 2010 and 2009:
                                                                                               FY 2010           FY 2009

Budgetary Resources Obligated:
 Obligations incurred                                                                      $   11,040,412    $    9,446,300
 Less: spending authority from offsetting collections and recoveries                            1,524,412         1,709,175
 Obligations net of offsetting collections and recoveries                                       9,516,000         7,737,125
 Less: offsetting receipts                                                                        110,015           189,641
 Net obligations                                                                                9,405,985         7,547,484
Other Resources                                                                                   (64,814)         (116,467)
Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in Undelivered Orders                                                                    (527,248)         443,543
 Resources that fund expenses recognized in prior periods                                             -                -
 Budgetary offsetting collections and receipts that do not affect net cost of operations          124,888          337,748
 Resources that finance the acquisition of assets                                                 (32,392)         (25,321)
 Other                                                                                             21,857          (40,873)
Components of the Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period:
 Increase in annual leave liability                                                                 1,069             1,432
 Upward/Downward reestimates of credit subsidy (+/-)                                               40,118           (43,179)
 Increase in exchange revenue receivable from the public                                            1,460               351
 Depreciation and amortization                                                                     17,039            12,174
 Revaluation of assets or liabilities (+/-)                                                          (100)               (7)
 Other (+/-)                                                                                      (26,697)           77,708

Net Cost of Operations                                                                     $    8,961,165    $    8,194,593
Required Supplementary Information

REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY
RESOURCES
For the Year Ended September 30, 2010
(Dollars in thousands)

The OMB Circular No. A-136, “Financial Reporting Requirements,” requires additional disclosure of an
entity's budgetary information by major budgetary account if the information was aggregated for
presentation purposes on the Statement of Budgetary Resources. The major budget accounts include the
Commission and the USF. Reflected in the chart below are the major accounts of the Commission that
are aggregated and presented in the September 30, 2010 Combined Statement of Budgetary Resources.

FY2010                                                      S&E             Credit       Auctions         USF             Total
Budgetary Resources:

Unobligated balances - brought forward, October 1       $    41,534     $      19,345    $  3,135     $    2,983,446 $  3,047,460
Recoveries of prior year unpaid obligations                  10,796                21       1,880          1,030,632    1,043,329
Budget authority                                            363,319            90,562      85,000          9,004,005    9,542,886
Nonexpenditure transfers, net, anticipated and actual         4,781                 -      (4,781)                 -            -
Temporarily not available pursuant to Public Law             (5,739)                -           -                  -       (5,739)
Permanently not available                                       (75)          (15,490)          -                  -      (15,565)
Total budgetary resources                               $   414,616     $      94,438    $ 85,234     $   13,018,083 $ 13,612,371

Status of Budgetary Resources:

Obligations incurred                                    $   375,882     $     83,308     $ 85,035     $   10,496,187 $ 11,040,412
Unobligated balances - available                             37,744            6,720            -          2,364,613    2,409,077
Unobligated balances - not available                            990            4,410          199            157,283      162,882
Total, status of budgetary resources                    $   414,616     $     94,438     $ 85,234     $   13,018,083 $ 13,612,371

Change in Obligated Balance:

Total unpaid obligated balance, net brought Forward     $     67,339    $       1,119    $ 29,307     $    3,059,646 $    3,157,411
Obligations incurrred, net                                   375,882           83,308       85,035        10,496,187    11,040,412
Gross outlays                                               (372,446)         (79,962)     (91,324)       (8,874,511)    (9,418,243)
Recoveries of prior year unpaid obligations, actual          (10,796)             (21)      (1,880)       (1,030,632)    (1,043,329)
Total, Unpaid obligated balance, net, end of period     $     59,979    $       4,444    $ 21,138     $    3,650,690   $ 3,736,251

Net Outlays

Gross outlays                                           $    372,446    $      79,962    $ 91,324     $    8,874,511 $    9,418,243
Offsetting collections                                      (363,320)         (14,873)     (85,000)          (17,890)      (481,083)
Distributed offsetting receipts                              (87,235)               -            -           (22,780)      (110,015)
Net outlays                                             $    (78,109)   $      65,089    $ 6,324      $    8,833,841 $    8,827,145
